<html>
<title> - AGENCY BUDGETS AND PRIORITIES FOR FISCAL YEAR 2007</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
           AGENCY BUDGETS AND PRIORITIES FOR FISCAL YEAR 2007

=======================================================================

                                (109-54)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 8, 2006

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                                   ____

                    U.S. GOVERNMENT PRINTING OFFICE
28-269                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)

  
?

            Subcommittee on Water Resources and Environment

                JOHN J. DUNCAN, Jr., Tennessee, Chairman

SHERWOOD L. BOEHLERT, New York       EDDIE BERNICE JOHNSON, Texas
WAYNE T. GILCHREST, Maryland         JOHN T. SALAZAR, Colorado
VERNON J. EHLERS, Michigan           JERRY F. COSTELLO, Illinois
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               BRIAN BAIRD, Washington
RICHARD H. BAKER, Louisiana          TIMOTHY H. BISHOP, New York
ROBERT W. NEY, Ohio                  BRIAN HIGGINS, New York
GARY G. MILLER, California           ALLYSON Y. SCHWARTZ, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  EARL BLUMENAUER, Oregon
BILL SHUSTER, Pennsylvania           ELLEN O. TAUSCHER, California
JOHN BOOZMAN, Arkansas               BILL PASCRELL, Jr., New Jersey
JIM GERLACH, Pennsylvania            RUSS CARNAHAN, Missouri
TOM OSBORNE, Nebraska                NICK J. RAHALL, II, West Virginia
TED POE, Texas                       ELEANOR HOLMES NORTON, District of 
CONNIE MACK, Florida                 Columbia
LUIS G. FORTUNO, Puerto Rico         JOHN BARROW, Georgia
CHARLES W. BOUSTANY, Jr.,            JAMES L. OBERSTAR, Minnesota
Louisiana, Vice-Chair                  (Ex Officio)
JEAN SCHMIDT, Ohio
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Baxter, Bill, Chairman, Tennessee Valley Authority..............    15
 Bodine, Susan Parker, Assistant Administrator, Office of Solid 
  Waste and Emergency Response, U.S. Environmrntal Protection 
  Agency.........................................................    12
 Dunnigan, John H., Assistant Asministrator, National Ocean 
  Service, National Oceanic and Atmospheric Administration, U.S. 
  Department of Commerce.........................................    15
 Grumbles, Benjamin H., Assistant Administrator for Water, U.S. 
  Environmental Protection Agency................................    12

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    55
Costello, Hon. Jerry F., of Illinois.............................    56

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Baxter, Bill....................................................    37
 Bodine, Susan Parker............................................    43
 Dunnigan, John H................................................    59
 Grumbles, Benjamin H............................................    69

                       SUBMISSIONS FOR THE RECORD

 Bodine, Susan Parker, Assistant Administrator, Office of Solid 
  Waste and Emergency Response, U.S. Environmrntal Protection 
  Agency, responses to questions from Rep. Kelly.................    51
 Grumbles, Benjamin H., Assistant Administrator for Water, U.S. 
  Environmental Protection Agency, responses to questions from 
  Rep. Johnson of Texas..........................................    77


           AGENCY BUDGETS AND PRIORITIES FOR FISCAL YEAR 2007

                              ----------                              


                        Wednesday, March 8, 2006

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Water Resources and Environment, Washington, 
            D.C.
    The subcommittee met, pursuant to notice, at 2:00 p.m. in 
room 2167, Rayburn House Office Building, Hon. John H. Duncan, 
Jr. [chairman of the subcommittee] presiding.
    Mr. Duncan. We are going to go ahead and start a little bit 
early here. Other members will be joining us.
    I first would like to welcome everyone to the second of our 
fiscal year 2007 budget hearings. Last week, we heard from the 
Army Corps of Engineers, the Natural Resources Conservation 
Service, and the St. Lawrence Seaway Development Corporation. 
Today's hearing will examine the budgets and priorities of the 
Environmental Protection Agency, the National Oceanic and 
Atmospheric Administration, and the Tennessee Valley Authority 
for fiscal year 2007.
    I certainly support the President's efforts to control 
Federal spending and I understand that some tough choices need 
to be made. But I have to take issue with some of the choices 
on where to cut the spending. It is inevitable that the 
Administration's priorities and congressional priorities will 
not always coincide. However, for the EPA and NOAA programs 
that fall within the jurisdiction of this Subcommittee, I would 
like to think that we have the same goal of protecting our 
environment in a cost effective way.
    With that goal in mind, I continue to be disappointed that 
the Clean Water Act State Revolving Loan Program, the SRF 
Program, is perennially the target of proposed budget cuts. The 
SRF Program is one of the most cost effective programs in the 
government. For every dollar the Federal Government invests, 
more than $2 are made available for environmental improvements. 
That is not a pie in the sky figure.
    In fact, the Federal investment of $23 billion in the SRFs 
has led to the creation of over $55 billion of revolving loan 
funds available for clean water projects. In fiscal year 2005 
alone, the SRF Program provided over $4.9 billion in loans for 
sewer upgrades and other water quality improvements around the 
Nation, and certainly we need a lot of work in that regard.
    It does sound like a lot of money, but the needs are far 
greater. We are all well aware that our national water 
infrastructure is aging, deteriorating and in need of repair 
and replacement. Studies by the EPA, the Congressional Budget 
Office and the Water Infrastructure Network have confirmed that 
the gap between current levels of spending and the necessary 
level of investment in wastewater infrastructure is staggering 
and we need to double our efforts at least to close that gap.
    We are spending several hundred billions each year in other 
countries doing all sorts of things, and as I have mentioned 
here before, we have been spending more on the water system in 
Iraq at the Federal level than we have in recent years from the 
Federal level here in this Country. Of course, we are spending 
more total when you add in the rate payers and the State and 
local expenditures.
    By continuing to cut funding of the Clean Water SRF Program 
as the Administration has proposed, SRFs will be unable to help 
local communities fund thousands of essential clean water 
projects all around the Nation. The consequences of failing to 
invest are severe. Without upgrades to wastewater 
infrastructure, not only will we fail to make progress in water 
quality, but as our population increases we will lose the gains 
we have made over the past 30 years.
    There has to be a shared commitment to make the needed 
improvements to our water infrastructure and there certainly is 
an important national role here, but we need local, State and 
Federal investment in this area to continue to increase, not 
decrease, as our population grows and the needs and the 
infrastructure age and the needs become even greater.
    And there is an important national role because millions of 
people come to and through Tennessee each year, and millions of 
Tennesseans go each year to other States. Most people go to 
several States in any one year, and they use our water systems 
throughout the Country. So there certainly is a legitimate 
national role in this area.
    The EPA also needs to direct adequate funding towards its 
other core clean water programs. As for the Superfund Program, 
the overall budget request of $1.26 billion is $17 million more 
than the currently enacted level. However, that increase is not 
being directed towards on the ground cleanup activities. 
Proposed funding for actual removal and remedial actions is 
less than the currently enacted funding level and even the 
Administration's fiscal year 2006 requested amount. The EPA 
needs to reallocate more funding away from overhead and 
administrative costs and towards cleanup.
    In 2004, the EPA's Inspector General identified a shortfall 
of $175 million in funding for cleaning up Superfund sites. 
That shortfall has not been addressed. Instead, the President's 
budget appears to be deferring to the overall levels Congress 
has enacted recently.
    For NOAA, I am interested in hearing about NOAA's role in 
carrying out the President's Ocean Action plan, particularly 
the National Water Quality Monitoring Network. This 
Subcommittee has consistently encouraged better coordination of 
water monitoring data and would like to hear about what NOAA is 
doing to maximize coordination with other agencies.
    Finally, I want to comment on TVA's budget for fiscal year 
2007. Unlike the other agencies before us today, TVA is self-
financed, drawing its revenues from eight million ratepayers in 
the seven States that it supplies with electricity. I 
appreciate all the benefits that TVA brings to the people of my 
District and our region. I want to see a strong and financially 
sound TVA that will continue to benefit the Tennessee Valley 
long into the future.
    In past hearings, I have expressed concerns about TVA's 
long term financial health. Other Members have raised similar 
concerns. Since then, the Committee has met with the TVA, its 
customers and people in the financial and utility industries. I 
am pleased that TVA is now doing more to manage its financial 
obligations.
    The TVA's strategic plan adopted in 2004 seeks to reduce 
the Authority's debt. This is something that I expressed 
concern about when I first came to Congress. This is my 18th 
year. Many years ago, the TVA's total debt was approaching 
almost $30 billion and was moving up rapidly. At one point, 
they were spending 34 cents of every dollar just to service 
that debt. I am very pleased that under the leadership of 
Chairman Baxter that real progress seems to be being made 
towards this debt reduction and that debt reduction is a high 
priority in the TVA's budgeting to reduce its total financial 
obligations.
    I remember writing to the Federal Financing Bank to ask if 
they would allow TVA to refinance some of its debt, and that 
certainly has helped, but there have been many, many actions 
taken under the leadership of Chairman Baxter and I will say 
that I certainly admire and appreciate and respect the work 
that he has done. We are pleased to have him here today.
    I should say I am pleased to have all the witnesses here. 
Mr. Grumbles has been with us many times before, and Mr. 
Dunnigan also, but we have the former Staff Director, Susan 
Bodine, here. I know that she misses us terribly.
    [Laughter.]
    Mr. Duncan. At any rate, we are certainly honored to have 
her back with us as well.
    And now I would like to turn to my good friend, the Ranking 
Member, Ms. Johnson, for any comments she wishes to make.
    Ms. Johnson. Thank you very much, Mr. Chairman, for holding 
this second hearing on the fiscal year 2007 budget and its 
impact on programs within the jurisdiction of this 
Subcommittee.
    The President's budget highlights the disconnect between 
the priorities of the American people and protecting the 
Nation's economic and environmental health, and those of this 
Administration. The President's budget request for the 
Environmental Protection Agency is the lowest ever requested by 
this Administration, representing close to $400 million or a 5 
percent reduction from last year's appropriated level.
    This budget request also represents the lowest funding 
level requested by this Administration for EPA's Superfund 
Program, EPA's Brownfields Assessment and Cleanup Program, and 
EPA's water and wastewater infrastructure grant programs, 
programs that are essential for safeguarding human health and 
protecting the environment.
    As I stated at our last meeting, this budget is simply not 
adequate to meet the Nation's needs. First, the budget takes a 
penny wise, pound foolish approach to the economy, making 
imprudent short term cuts to programs that have proven 
essential for long term economic health. Most notable is the 22 
percent reduction to the primary Federal program for investing 
in wastewater infrastructure, the Clean Water State Revolving 
Fund.
    Mr. Chairman, the Congressional Budget Office, outside 
groups and even EPA itself have each documented annual needs of 
over $10 billion above current expenditures to meet future 
wastewater infrastructure needs. Yet this budget would 
eliminate almost $200 million in Federal grants to States for 
revolving loan funds, as well as an additional $200 million in 
Federal funding for high priority water and wastewater 
projects.
    These reductions are simply unacceptable. States and local 
communities have warned that reduced funding for wastewater 
infrastructure programs will make it more difficult to respond 
to failing wastewater infrastructure and would likely force the 
delay of essential upgrades to meet requirements of the Clean 
Water Act and to improve water quality. In fact, we all know of 
examples where local communities have been unable to fund 
necessary projects due to the lack of available funds.
    In addition, EPA has warned that without increased 
investment in our Nation's wastewater infrastructure, we will 
likely reverse the gains made in improving water quality over 
the past 20 years. According to the agency, in less than a 
generation, we could see a return to the days when rivers were 
little more than open sewers.
    Mr. Chairman, the Superfund Program fares no better in this 
budget. Since this Administration came into office, the 
President's budget has almost halved the annual number of 
Superfund cleanups achieved by the previous Administration. In 
just six years, EPA has slowed the pace of cleanup from the 
average of 173 sites per year, to just over 40, leaving our 
neighborhoods at risk while they await available cleanup 
funding.
    Unfortunately, the current budget request will do little to 
accelerate the cleanup of these remaining toxic sites. In fact, 
it will do the opposite because when faced with insufficient 
funding to address contaminated sites, EPA will be forced to 
further slow cleanups at current sites and may be forced to 
limit the number of future sites that may enter the cleanup 
program.
    We will see a second slowdown of Superfund cleanups, 
perhaps as early as next year, as agency officials have 
indicated the need to internally shift funds from site 
investigations and selection of appropriate remedies, toward 
construction. While I am all for cleanups by shifting funds 
from the investigations end of the pipeline towards 
construction, the only result will be further delay in the 
future cleanups as sites more slowly through the entire cleanup 
process.
    The budget also reinforces the troublesome finding of a 
2004 EPA report that highlighted how limited funding for the 
Superfund Program has hampered its ability to clean up toxic 
waste sites. This report estimated that in fiscal year 2003 
alone, the site specific shortfall for the Superfund was $174 
million, forcing ongoing cleanups to be delayed, segmented into 
pieces or scaled back, solely as a result of budgetary 
shortfalls.
    EPA responded that a major cause for this shortfall was 
that the remaining sites were more complex and more costly. 
However, most of these sites have been in the Superfund 
pipeline for decades, so it comes as no surprise that 
additional cleanup dollars were going to be necessary, and the 
longer we wait the more will be needed.
    Yet, for the last six years, EPA's Superfund budget has 
been declining, failing even to keep up with the pace of 
inflation. Fewer resources for more expensive sites can only 
lead to slowdowns. If the President's request is enacted, this 
would be the lowest amount available for cleanup in terms of 
real spending power at any time since the late 1980s, again 
forcing local communities to live with toxic waste sites.
    This budget also proposes that all Federal spending for the 
Superfund Program will be from general taxpayers and continues 
the alarming trend of collecting fewer and fewer cost 
recoveries from responsible parties. This is not how the 
Superfund Program was intended to be when it was enacted. Gone 
are the days when the Superfund was a polluter pays program.
    I am also concerned at the failure to adequately fund other 
important programs within the jurisdiction of this 
Subcommittee. In particular, I am concerned that the budget 
proposes to cut EPA's Section 319 Program despite recognition 
that point sources of pollution are the single largest source 
of impairment of the Nation's rivers, lakes and near coastal 
waters.
    At the same time, the budget proposes to eliminate the 
National Oceanic and Atmospheric Administration's Coastal 
Nonpoint Pollution Control Program, a program that has 
demonstrated great potential in improving coastal water quality 
and reducing the likelihood of unsafe beach conditions and 
closures.
    The budget requests the lowest level of funding ever for 
the Brownfields site assessment and cleanup programs, while 
asserting that the budget fully funds Brownfield cleanups. When 
the President signed the Brownfield legislation in January of 
2002, he said that the bill was good public policy, that it was 
wise, and encourages growth, and fosters the environment. Under 
this budget, those attributes seem no longer to be important to 
the Administration.
    Mr. Chairman, we cannot under-invest in our Nation's 
infrastructure or its environment. We have an obligation to 
future generations to provide a cleaner, safer and more secure 
world for them to live.
    I thank you for having this testimony. I look forward to 
hearing out witnesses.
    I yield.
    Mr. Duncan. Thank you very much.
    Does anyone wish to make a statement? Mr. Fortuno, do you 
have a statement? Mr. Gilchrest?
    Mr. Gilchrest. I just wanted to say hi to former staff, and 
hope their lives are going well, and they are being treated 
equitably. If you could focus all of your attention on the 
Chesapeake Bay issues, we would appreciate it.
    [Laughter.]
    Mr. Duncan. Mr. Pascrell?
    Mr. Pascrell. Yes, Mr. Chairman. I want to thank you and 
Ranking Member Johnson for this opportunity, and welcome 
Assistant Administrator Bodine and Mr. Grumbles, who have been 
before us before, and Mr. Dunnigan and Mr. Baxter.
    I want to start of by two questions, asking rhetorical 
questions, of course, because I have a Homeland Security 
meeting I have to go to. I would ask this of Mr. Grumbles very 
quickly. You do not need to be a former Mayor to know that 
municipalities need resources to do what we say they must do, 
build the infrastructure. Whatever happened to Federal mandate, 
Federal pay?
    My second question to Administrator Bodine is, in 1995 
taxpayers paid just 18 percent of the total Superfund Program. 
In 2004, taxpayers paid 80 percent. Under the Clinton 
Administration, we averaged 87 cleanups per year. Under this 
Administration, we average 40 a year, and there are 113 
Superfund sites in the State of New Jersey. What do you intend 
to do about it?
    So if it feels like we have all been to this same hearing 
with the same budget problems each of the last six years, it is 
because we have. I am hopeful that the laudable addition of 
newly installed Assistant Administrator Bodine will help the 
situation across town at the EPA, but with this Administration, 
I am not holding my breath.
    Let's get real here. The Administration budget offers a 
mere $687 million for the Clean Water State Revolving Fund. 
That is half of what the Congress had been appropriating up 
until 2004. New Jersey municipalities at least know who to 
blame when the long line to access the limited funds will keep 
getting longer and property taxes get higher and higher.
    The Federal Government has rightly mandated tough clean 
water standards, but municipalities need the resources to build 
infrastructure to meet those standards. The Administration 
budget misses another chance to prove its commitment to our 
Nation's clean water.
    It is not on the front pages. You don't see it on any of 
the talk shows. Nobody cares about it. It is a fact of reality. 
If it wasn't for this Chairman and this Committee on both sides 
of the aisle, it wouldn't even be discussed even here in the 
Transportation Committee. It wouldn't even be a second thought. 
So it wouldn't be on page 38; it would just not be there, 
period. Let's not kid ourselves.
    Cities want to be in compliance with EPA, and keep local 
rivers clean by doing what is right for the environment and for 
the future generations. But when you mix large capital 
investments with severe budgetary constraints, many cities are 
simply unable to do what they need to do to meet Federal 
regulations.
    What the Administration should do is take a page from this 
Committee, which thanks the leadership which is at the 
forefront of wastewater infrastructure issues. For five years, 
this Committee has attempted to not only authorize, but to put 
real money there so we can use it. We do not have a system of 
checks and balances in this government. We have thrown fair 
government to the wind. We do not have equal branches of 
government. And this is a perfect example and a mirror up to 
what this Administration is all about.
    The Committee reported to reauthorize as reported out $1.5 
billion for wet weather grant programs. This legislation can 
actually give cities and towns the resources they desperately 
need to clean up non-complying combined sewer systems, and 
there is enough to go around in this Country, as you well know.
    They will need all the help they can get as in the budget 
blueprint the EPA Brownfields Program is slated to receive only 
half of its authorized level. No question about it, two years, 
they will zero it out. I don't know what else they intend to 
zero out.
    I have serious concerns about the budget. I wish the panel 
lots of luck in defending the Administration request. I know 
that is why you are here. But you know what? You are not just 
messengers. You are smart. You are intelligent human beings. I 
don't say that in a compromising way at all or a patronizing 
way. You can't simply be the messenger when you know darn well 
that this Administration is not doing what should be done. If 
we mandate it, we have to help those municipalities out there.
    You do not have to talk to the municipalities. You are down 
here. We represent those municipalities back in our Districts. 
You want to come up and hit every District where we have this 
problem? You know you are not going to be able to do that. So 
you have to fight for what we think should be in there, or go 
back and just deliver the message. I think that compromises 
your intelligence. I ask you, I beg of you, let's make this 
year different from all the last five.
    Should I be hopeful? I ask rhetorically, should I be 
hopeful.
    Thank you, Mr. Chairman.
    Mr. Duncan. Thank you, Mr. Pascrell.
    Dr. Ehlers?
    Mr. Ehlers. Thank you, Mr. Chairman. I appreciate your 
having this hearing. It is good to see our friends back, Mr. 
Grumbles, Ms. Bodine. I can say that I knew you before you were 
honorable.
    [Laughter.]
    Mr. Ehlers. It is a real pleasure to see you back. You were 
both outstanding members of the Committee. We hated to lose 
you, but we still have part of you through this process and 
your new assignments.
    A few comments. I associate myself with a number of the 
comments of Mr. Gilchrest, except his comment about Chesapeake 
Bay. Obviously, the Great Lakes have much more water and have 
much greater need, and I hope that all of you will keep that in 
mind.
    Mr. Gilchrest. Will the gentleman yield?
    Mr. Ehlers. No.
    [Laughter.]
    Mr. Ehlers. Sorry about that, Wayne.
    I very much appreciate the Administration's request of 
$49.6 million for the Legacy Act. That has been a real boost to 
keeping the Great Lakes clean and cleaning up the sediment in 
the rivers. I am sorry that Congress has not matched the 
President's request. We will continue to work on that to make 
sure that it does.
    Also as you know, the entire Great Lakes Program went 
through a major national collaborative project last year and 
came to good conclusions which they announced on December 12. 
It is clear that there is not enough funding in this present 
funding climate to really launch the program the way it should 
be launched, but I am working on legislation to get a start on 
that.
    I hope that will be ready within the matter of a couple of 
weeks, and I will then be discussing it with you, Mr. Chairman, 
and with the staff because this is a crucial issue. As I said, 
it is going to take time, but it time for the Everglades. It 
took time for the Chesapeake Bay. But it is the sort of thing 
that you have to begin addressing and do as much as you can as 
soon as you can.
    The other factor I mentioned, it really strikes me that 
water is an incredible friend, but also an incredible enemy at 
time. I think the focus of this Committee has to be to continue 
to try to make sure that water remains a friend, and by that I 
mean that it is accessible, it is pure, and that we will have a 
sufficient supply for every part of our Nation.
    Also, we have to make sure that we contain the enemy in the 
water, whether it is hurricanes, floods, and any other activity 
that creates major problems for our people. I think that has to 
be the emphasis of all that we do here, whether it is done 
through our legislation, through the Corps, through helping 
others, but we always have to keep in mind our effort should be 
concentrated toward helping the friendly aspects of water and 
mitigating the unfriendly aspects of water.
    With just one last comment, when I talked a minute ago 
about the friendlier parts, I mentioned the purity of water. I 
find it ironic in this Country where, as Mr. Pascrell has said, 
we don't seem to have enough money at either the local or the 
Federal or the State level, to deal with some of the problems 
of water. And yet we are spending billions of dollars every 
year on bottled water in this Nation.
    I never, when I grew up, I never would have believed that 
this would ever happen. We knew it was that way in Europe. It 
was that way in parts of Asia, most of Asia. And we never, we 
have always been proud of the pure water in this Country. 
Today, even in the Congress of the United States, we are given 
bottled water because the city water does not meet the quality 
standards that we should have. So I think that is something 
that we all have to address.
    Thank you, Mr. Chairman.
    Mr. Duncan. Thank you, Dr. Ehlers. Certainly, one of 
several bills that were passed by this Committee in recent 
years was your Great Lakes Legacy Act, and that was very 
important legislation. No one has done more for the Great Lakes 
than you, and not enough people in this Country realize the 
importance of the Great Lakes to this entire Nation and what a 
tremendous asset it is.
    I told somebody recently I think that probably one of the 
things that my grandfather would have been the most amazed at 
is how much people are paying for and spending on bottled water 
in this Country today. You are right on that, too.
    Mr. Bishop?
    Mr. Bishop. Thank you, Mr. Chairman. Let me thank you and 
Ranking Member Johnson for holding this hearing.
    Let me say at the outset that I am very concerned by the 
budget proposals that we are now considering. These proposals 
sacrifice the long term health of our environment and the 
protection of our coastal communities for short term and 
insignificant reductions in the deficit.
    I am troubled by the Administration's continuing retreat 
from the protection of our environmental resources under the 
pretense of expanding economic growth. As someone who 
represents over 300 miles of coastline and numerous communities 
that depend on tourism and an immaculate local environment for 
their economic well being, I fail to see the correlation 
between weakening environmental protections and decimating our 
shoreline and growing the economy.
    This budget contains deep and disturbing cuts to efforts to 
protect our environment. Despite the urgent environmental needs 
of our air, water and land at risk, the EPA suffers some of the 
most drastic cuts proposed by the Administration. Many of these 
proposed cuts will directly affect my constituents on Long 
Island. The Administration's budget specifically targets the 
Long Island Sound Restoration Funding by drastically slashing 
this worthwhile program.
    In addition, it is perplexing that the President 
reauthorized this program in December with an authorization of 
$40 million, and yet the budget now sees fit to propose funding 
cuts for the Long Island Sound Study yet again.
    The budget also proposes funding cuts for the National 
Estuary Program, a proven Federal initiative. My District is 
home to two estuaries that rely on this funding to maintain 
their pristine environmental qualities.
    I look forward to discussing these issues further as we 
hear the testimony from our panelists.
    Thank you, Mr. Chairman.
    Mr. Duncan. Thank you, Mr. Bishop. And also we passed two 
bills that you helped usher through, the National Estuary 
Program and particularly the Long Island Sound legislation. We 
appreciate that very much.
    Ms. Norton, I believe, is next.
    Ms. Norton. Thank you very much, Mr. Chairman.
    I welcome today's witnesses. I am not sure I welcome the 
budget they have come to talk about.
    I want to begin by saying I was not here to hear what Wayne 
Gilchrest said about the Chesapeake Bay, but I just want to go 
on record as seconding whatever he said about the Chesapeake 
Bay.
    Mr. Duncan. He said we should spend the entire budget on 
the Chesapeake Bay.
    [Laughter.]
    Ms. Norton. Could I strike that?
    But Wayne understands that water does not stop at the 
border. The Chesapeake Bay, of course, is one of the great 
wonders of the United States, truly. I am concerned that among 
the waters that flow into ultimately the Chesapeake Bay are 
filthy Anacostia River waters from which storm water overflow 
from the capital of the United States, downtown Washington and 
the entire Federal presence flows.
    So thank you very much for your sewage, colleagues, but 
this is something that we simply have to get done since most of 
this storm water overflow comes from the fact that the system 
was built by the Corps of Engineers at a time when you mixed or 
allowed in rainstorm the mixture of sewage with more sanitary 
water, and thus it flows into the streets, it flows wherever it 
can find, but much of it comes from here. About one-third of it 
comes from the Federal presence.
    It is urgently needed. This Committee has been helpful. I 
noted that, I see Mr. Grumbles is here. He and I have gotten to 
know one another. I note that the Chesapeake Bay got into your 
testimony, and I am pleased to see that, but Mr. Grumbles' 
presence reminds me of the huge lead in water scare we had here 
in all of all places the Nation's Capital just three or four 
years ago.
    When Dr. Ehlers talked about bottled water, we know exactly 
what you are talking about because when people who drank the 
water who were pregnant, when children who drank the water 
learn of the possibility and indeed the fact that lead pipes 
had seeped into the water, you know that you are in trouble, 
and that what was being used here in the District to clear such 
impurities was not state of the art.
    As a result of that, along with a number of other Members, 
I filed a bill, refiled it this year, to truly update the Clean 
Water Act. We are living off of an old Act. Our own water 
treatment facility here has made some changes. For that matter, 
EPA has made some changes. The EPA was nothing short of 
embarrassed to have the capital of the United States in the 
national and international press with a lead water problem. For 
us, it was more than embarrassment. It was a true and terrible 
scare. We believe we have come some distance, but it has 
nothing to do with anything in this budget.
    I think the only thing that will matter is a much closer 
look at the Clean Water Act. The water fountains that your 
children use at school are undoubtedly like the water fountains 
we found in Maryland and in the District of Columbia. They have 
old pipes. Nobody looks to see whether those pipes are leeching 
lead. And those are children, those are the vulnerable people.
    Those of us who are sitting on this end of the roster have 
brains so thick and in place that lead would probably not 
penetrate at this point. But if you are a child, a young person 
with a supple brain and those brains are supple for a good 
number of years of their lives, certainly for the first dozen 
years or so, you simply do not need to be exposed to lead in 
the water when you go to school.
    What has happened of course to the confidence in the 
government's ability to provide this very basic necessity is 
that we have spawned an industry that sells water. We don't 
know what in the world that water is about. We don't know what 
its purity is. We assume.
    Isn't this pathetic? We assume that it must be better than 
the water that comes through our spigots. There is something 
very wrong with that. It is a loss of confidence in the ability 
of the government to in fact do one of the most basic things 
you do in even a society that does not claim to be advanced.
    Mr. Chairman, I am certain, given the success of the water 
industry, the loss of confidence in the people of the United 
States, that their governments can provide clean water. I am 
certain that somebody soon is going to be bottling clean air. 
Watch for it, my friends.
    Thank you, Mr. Chairman.
    Mr. Duncan. Thank you very much.
    Mrs. Kelly is next, but if you don't mind, Congressman 
Ehlers wants 30 seconds of your time. He wanted to make one 
more comment before you started.
    Mrs. Kelly. Mr. Chairman, I have no opening statement. I am 
anxious to go to the question and answer portion of this.
    Mr. Duncan. Okay.
    Mrs. Kelly. So you may use my time however you would like.
    Mr. Duncan. Okay, sure. We will go to Vern, Congressman 
Ehlers.
    Mr. Ehlers. Thank you very much. I will try to keep it 
short anyway.
    I got so carried away in my diatribe about bottled water, I 
neglected to mention something very important about NOAA. It is 
a plea to my colleagues to help me in an effort to maintain the 
integrity of their budget and their appropriations this year. 
For some reason, the NOAA budget has become a target for 
larceny in the past several years in the appropriations 
process, probably because they feel that, those who take the 
money for other purposes may feel that there is not enough 
support for NOAA's programs.
    I would just encourage all of us to work diligently to make 
sure that the appropriations intended for NOAA in fact end up 
in NOAA research and operations, and that we do not have so 
much diverted to other causes and other purposes in the next 
few years.
    Thank you.
    Mr. Duncan. Thank you very much.
    Mr. Baird?
    Mr. Baird. Thank you, Mr. Chairman.
    Just very briefly, I want to thank the panelists, and 
enjoyed meeting with Mr. Dunnigan the other day. We discussed 
at the time the importance of research that is often neglected 
on harmful algae blames, which Mr. Ehlers and I have worked on 
very much before. I want to reiterate the importance of that, 
particularly for our shellfish industry and for public safety. 
And also my longstanding interest, again with Dr. Ehlers, on 
the issue of invasive species. So we wish to work with you on 
that.
    Also, of course, the important permitting issues that many 
of your agencies are involved with, to the extent that we can 
work collaboratively to expedite those processes while still 
protecting the environment, we can I think do things more 
efficiently and economically.
    I yield back. Thanks, Mr. Chairman.
    Mr. Duncan. Thank you very much.
    We have a very distinguished panel today. The Honorable 
Benjamin H. Grumbles is Assistant Administrator for Water at 
the U.S. Environmental Protection Agency. He is from here in 
Washington. The Honorable Susan Parker Bodine is Assistant 
Administrator, Office of Solid Waste and Emergency Response of 
the EPA, also from here. We have Mr. John H. Dunnigan who is 
the Assistant Administrator of the National Ocean Service of 
the National Oceanic and Atmospheric Administration, also from 
Washington. And then we have one of my 700,000 bosses, Mr. Bill 
Baxter, a long time friend of mine, who is Chairman of the 
Tennessee Valley Authority.
    Mr. Baxter, it is an honor to have you here. You are 
fortunate, when Chairman Boehlert, the six years he chaired 
this Subcommittee, and he was from upstate New York, almost 
every year he would use this hearing to complain about what he 
thought was an unfair advantage TVA gave people from our 
region. Of course, I didn't think it was an unfair advantage at 
all. At any rate, we are glad to have you here.
    Your full statements will be placed in the record. We are 
supposed to limit you to five minutes. I always give the 
witnesses six minutes, but as a courtesy to the other 
witnesses, if you see me start to wave this, that means your 
six minutes is up and so I want you to try to bring it to a 
close.
    To be honest with you, I think of all the times that Ben 
Grumbles has been here, I don't think he has ever taken the 
full five minutes even.
    [Laughter.]
    Mr. Duncan. So I don't know. We will see what happens 
today.
    Mr. Grumbles?

TESTIMONY OF BENJAMIN H. GRUMBLES, ASSISTANT ADMINISTRATOR FOR 
   WATER, U.S. ENVIRONMENTAL PROTECTION AGENCY; SUSAN PARKER 
  BODINE, ASSISTANT ADMINISTRATOR, OFFICE OF SOLID WASTE AND 
EMERGENCY RESPONSE, U.S. ENVIRONMENTAL PROTECTION AGENCY; JOHN 
 H. DUNNIGAN, ASSISTANT ADMINISTRATOR, NATIONAL OCEAN SERVICE, 
     NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION, U.S. 
DEPARTMENT OF COMMERCE; BILL BAXTER, CHAIRMAN, TENNESSEE VALLEY 
                           AUTHORITY

    Mr. Grumbles. Thank you, Mr. Chairman. It is truly an honor 
to appear before the Committee. I just look at the membership 
of the Committee and see the leaders on environmental issues, 
particularly in great waters, sensitive ecosystems like the 
Great Lakes, the Chesapeake Bay, the Anacostia, but also the 
whole effort. So it is an honor to be back.
    It is even more of an honor to be able to appear with 
Susan. That is just a tremendous opportunity for EPA to have 
her working at EPA with us.
    It is an honor to be here to discuss the President's fiscal 
year 2007 budget request for EPA, and specifically for the 
National Water Program. The President charged the Administrator 
with the job of accelerating environmental protection, while 
maintaining our Country's economic competitiveness. We believe 
the 2007 budget request provides the tools and the resources to 
do so. In the amount of time I have in the opening statement, I 
want to emphasize two words, and the two words are 
sustainability and stewardship.
    Sustainability of infrastructure is a key theme and a focus 
of the agency. I know and we are taking note and we understand 
the views of those who criticize the investments in the 
President's budget in the State revolving fund. We feel that 
the $688 million request is on track with the commitment to 
provide a self-sustaining, fully revolving level of $3.4 
billion after 2011, and that that seed money, those investments 
in the State revolving fund must be coupled with an aggressive 
approach to implement four pillars of sustainability.
    Those four pillars are improved management, looking at it 
from a demand side, working cooperatively with utilities and 
cities across the Country to use asset management, capacity 
development, environmental management systems, technologies, to 
reduce the costs, reduce the demand on infrastructure and 
improve the management.
    The other pillars of sustainability that we are committed 
to and want to work with you on include full cost pricing and 
also water efficiency, and then the last pillar being 
watershed-based approaches. We think that is where we can make 
the progress.
    Through all of those pillars, the key tools are technology 
and innovation and collaboration. So we agree. We recognize 
that one of the greatest challenges is making progress, 
maintaining economic competitiveness, but making progress on 
the water infrastructure challenge.
    We want to work with Members of Congress, with citizens, 
with the private sector, to find innovative financing tools to 
supplement the four pillars of sustainability.
    Mr. Chairman, on the issue of watersheds and core clean 
water programs, the President's budget includes $192 million 
for EPA's core clean water regulatory program. This provides 
the tools and the science for setting water quality standards, 
for monitoring, for progress and coordination with our partners 
on the clean water challenge.
    Also included is $194 million for nonpoint source 
pollution, which we recognize is one of the greatest 
challenges. We believe that EPA's budget, in coordination with 
USDA farm bill programs and other programs, can continue to 
make significant progress. We will make more progress if we 
focus on innovative tools such as water quality trading, to 
have more cost effective in environmentally results-oriented 
approaches.
    The budget request also includes $222 million in grants to 
States and tribes, our partners in carrying out the Clean Water 
Act, to help them administer their important responsibilities. 
For wetlands program, we are requesting a total of $38 million. 
That includes $17 million for State Capacity Development 
Grants. We think it is important for States to have the tools 
to protect these precious resources.
    On the Great Lakes, I want to acknowledge the leadership of 
the Subcommittee, including in particular Congressman Ehlers. 
That is a highlight of the budget. It is a high priority of the 
Administrator. It is a priority of the President, and $70 
million is included in the budget, and nearly $50 million for 
implementation of the Great Lakes Legacy Act, cleaning up those 
contaminated sediments.
    The Chesapeake Bay Program includes approximately $26 
million. That is a very important program. It is a national 
treasure, and we are very excited about improving and 
accelerating the progress with our partners in the Chesapeake 
Bay.
    There are two last things I want to mention, Mr. Chairman. 
One of those is water security. That is truly one of the 
priorities for the National Water Program, and $53 million is 
included for water security-related efforts, including $38 
million for the Water Sentinel Program.
    The last thing I want to mention is the promise and 
progress that we can achieve through Good Samaritan legislation 
and administrative efforts. Now is the time to move forward in 
a bipartisan way and enact Good Samaritan legislation. The 
Administration and the EPA are committed to working with you 
and with the States on Good Samaritan efforts. We are also 
working administratively to develop a toolbox of tools to 
provide assistance.
    With that, Mr. Chairman, I want to thank you for the 
opportunity to testify. I would be happy to answer questions at 
the appropriate time.
    Mr. Duncan. Thank you very much, Administrator Grumbles. 
Actually, our next hearing at the end of this month will be 
concerned with the Good Samaritan legislation to which you have 
referred.
    Ms. Bodine?
    Ms. Bodine. Thank you, Mr. Chairman, Members of the 
Committee.
    As most of you realize, this is my first hearing as 
Assistant Administrator of the Office of Solid Waste and 
Emergency Response. I am delighted that this opportunity is 
happening in front of the Water Resources and Environment 
Subcommittee. I am very happy to be here today to discuss the 
President's budget with you with respect to the programs that 
fall under the Office of Solid Waste and Emergency Response.
    The President's budget provides the necessary funds for EPA 
to carry out our missions effectively and efficiently. 
Administrator Johnson has reminded us that we are not only 
stewards of the environment, but we are also stewards of the 
taxpayer dollars. This budget allows us to achieve both of 
those goals.
    I do want to mention that the Administrator is very heavily 
focused on results, environmental results, and maximizing the 
return on our investments, and has initiated some very good 
tracking measures to make sure that that is the case. So we are 
all focused on spending our dollars as efficiently as possible 
and making sure that we are getting the results for that 
investment.
    For the Superfund Program, the President's budget request 
is $1.259 billion. That represents increased funding from last 
year. The increased funding is targeted towards both 
enforcement and for homeland security. There is a $9 million 
increase in enforcement, and that is important because it does 
ensure that Superfund cleanups are performed by parties that 
are responsible for the waste.
    To date, the Superfund program has obtained commitments 
from PRPs to pay over $24 billion worth of cleanup, as well as 
cost recovery efforts. So I want to remind you of that just for 
context, that the contribution to date has been $24 billion.
    On the increase in homeland security, overall it is a $12 
million increase, but $9.5 million of that is to establish a 
network of labs. I want to spend a few minutes talking about 
this because it is extremely important. It was requested last 
year as well. It was not funded. I think that we did perhaps a 
poor job of explaining the need to establish a lab network.
    This is critical to our response efforts in the event of 
any terrorist attacks. As you might expect, EPA has extremely 
good and well established networks of labs to deal with 
chemical substances, chemical releases. We do not have that 
same network established for both radiological and biological 
substances. The purpose of the $9.5 million is to set up the 
networks of labs that we know can work with EPA, understand our 
protocols, and are able to deal with our databases so that 
should an event happen, we would be ready.
    I would hope that this year Congress would see fit to fund 
that. About $2 million of that funding request also is for the 
National Decontamination Team's special equipment. Again, it is 
the same issue. It is readiness. We all hope that nothing 
happens, that there would not be any attack, but should there 
be, there is specialized equipment for the National 
Decontamination Team that we do not have right now, and we do 
need to purchase it. So I am spending time stressing that 
because it has not been funded.
    The Superfund request allows us to continue the pace of 
cleanup. As of January, there were 970 construction 
completions. Cleanup construction is underway for over 90 
percent of the sites on the NPL. The goal for construction 
cleanup this year is 40 sites.
    I do want to spend another minute talking about the efforts 
that we are taking in the Superfund Program to increase 
efficiencies, and also to use our money as best we can. For 
example, if a contract is closed out and there is still money 
left in it, we are very aggressively de-obligating funds so 
that we can then take that money and use it at other sites. We 
are conducting a workload analysis to make sure that the 
workload is appropriately distributed across the regions and 
across the various functions.
    We are benchmarking performance because again we are trying 
to get the most effectiveness out of our people. We are asking 
the regions to share best practices and we are working with all 
of the regions on remedy selection, whether it is contaminated 
sediments or groundwater. Of course, we also have the Remedy 
Review Board. We have expanded the use of that to make sure 
that we have our best technical experts in the agency looking 
at high cost remedies.
    On Brownfields, we are maintaining steady funding for the 
Brownfields program. The request is what Congress has provided 
for the last couple of years. In the past, the President has 
requested about $200 million for Brownfields, and Congress has 
not provided it. So what this year's request reflects is a 
recognition that Congress has not been willing to fund at the 
$200 million level, and instead proposes steady funding.
    Finally, with my last 29 seconds, I want to talk very 
briefly about the Katrina response. I appreciate the support of 
the Subcommittee with EPA's Katrina efforts. I want to let you 
know that there have been 1,100 EPA employees, not just from 
the Office of Solid Waste and Emergency Response, but Office of 
Water, all across the agency, all across the regions, 
volunteers that have gone down there, away from their homes, 
away from their families, and done rotations. They have done a 
terrific job.
    I am very proud of the job they have done. I am very proud 
of how EPA has responded to this emergency. We have the lead 
for ESF-10, which is oil and hazardous materials. We have 
support functions under ESF-3. The Corps has the lead for that, 
and that is the function under which the debris removal is 
taking place.
    I know that, Mr. Chairman, you have been down there. Other 
Members of the Committee have been down there and seen just the 
tremendous effort. I just want to convey to you, first, thanks 
for the support, as well as my pride in the contribution that 
EPA has made.
    Thank you.
    Mr. Duncan. Thank you very much, Administrator Bodine. Good 
job. The first testimony is always the hardest.
    I mentioned bills that Mr. Ehlers and Mr. Bishop had worked 
on and shepherded through this Committee, but I remember the 
major Brownfields legislation that we passed that you were the 
lead person on, among many other bills that I can mention. I 
thought of that as you were testifying very briefly about the 
Brownfields situation.
    Mr. Dunnigan?
    Mr. Dunnigan. Thank you, Mr. Chairman, Ms. Johnson, Members 
of the Committee. Thank you for the opportunity to be here this 
afternoon. My name is Jack Dunnigan. I work for NOAA. This is 
also my first time for an opportunity to be before this 
Committee.
    I must tell you that I have been in my current position as 
the Assistant Administrator for Oceans and Coastal Services for 
all of six weeks. I have been learning an awful lot about what 
it is that NOAA does in these areas, and in particular how much 
of the importance of what we do is represented by matters that 
are of intimate importance to the Members of this Committee on 
the transportation and navigation services side of what we do.
    We are basically in a position in our part of NOAA to be 
able to see where conservation and stewardship programs and our 
navigation programs have to work together, because they are 
really two sides of the same coin once you realize that it is 
all about the water.
    We began to realize that even more so, I think, in response 
to the storms that hit the Gulf of Mexico over last summer. 
NOAA was very hard in working to move forward and help respond 
to those storms. We were flying over the Gulf of Mexico the day 
after Hurricane Katrina left so that we could be taking over 
9,000 different photos that would be available to emergency 
response planners.
    We had navigation and response teams. We have six of those 
around the Country. Four of them were pre-positioned and ready 
to be deployed so that we could help the Coast Guard and the 
Corps of Engineers to identify areas of water that needed to be 
reopened so that we could begin commercial transportation along 
those waters as soon as possible.
    We had two of our large ocean-going research vessels 
redeployed, the Thomas Jefferson, which is from the Chesapeake 
Bay area, and the Nancy Foster, which works out of South 
Carolina, to do missions for navigation and environmental 
surveys.
    So in many numbers of ways, what we saw as a result of 
those storms last year was how all of NOAA could come together. 
We in the National Ocean Service really were a place where all 
of that had an opportunity to happen. We are certainly very 
proud of the efforts that our staff was able to make. We are 
very proud of the collaborations that we were able to have with 
our sister Federal agencies and working with State and local 
governments as well.
    There are a couple of parts of the President's request that 
we think are particularly important for the Committee that we 
would like to point out. One of them has to do with what we saw 
happen in the Hurricane Katrina context last year. That relates 
to response and restoration. The President's budget is seeking 
a total of $16.5 million for this program, which is an increase 
of about $3 million over what was enacted last year.
    This is a critical program because it is the place where we 
can provide the scientific support to agencies that have the 
primary response capabilities when oil spills or hazardous 
material spills or large environmental hazards happen. This is 
a part of our budget that has been gradually decreasing and 
whittling away over the last couple of years. The President's 
request would restore that funding to where this program was in 
2003.
    We think these are essential activities. There is about 
$1.5 million of those dollars that we lost in the 2006 budget. 
What we are afraid of is that if this continues, our ability to 
support our sister Federal agencies in difficult times is going 
to be gradually eroded. That is not a good thing. It is not a 
good thing for our collaborative efforts. It is not a good 
thing for the people who are affected.
    We also have a number of navigation programs that are 
critically important. The President's budget is seeking $10.5 
million to finish out surveys according to a plan that was 
looked at a couple of years ago that identified parts of our 
coastline that have not been surveyed, or parts where the 
surveys are just very old. Over half of the chart marks that 
you will see on NOAA charts are 40 to 50 years old or longer, 
and taken by somebody dropping a lead line in the water.
    You have to ask yourself how accurate, given today's modern 
technology, do we think those are? And what has happened to the 
bottom? How has it changed in those four or five decades since 
those surveys were taken? So we have identified a plan to 
survey by 2017 an additional 43,000 square nautical miles in 
the United States. This $10 million that the President has 
asked for will allow us to survey an additional 500 square 
nautical miles this year. In our base budget, we will be able 
to do about 2,500 square nautical miles. This 500 will keep us 
on a track to be able to complete the project that we have by 
2017.
    The President has asked for funding that would allow us to 
move towards completion of the suite of electronic navigation 
charts. The Coast Guard is going to require by 2010 that all 
commercial navigation use NOAA's electronic charts. If they are 
going to be able to do that, we have to be able to get the 
charting done. The amount of money that is in the President's 
budget this year will keep us on track towards having that 
finished by the year 2010. It would allow us to do an extra 70 
charts this year in addition to what we would try to do through 
our base funding.
    I think that these are examples. We are in a part of the 
President's budget where there are a lot of opportunities that 
the Administration has identified that are critical to the 
environmental stewardship and to the commerce of the United 
States, that deserve to have some funding. Mr. Ehlers mentioned 
it earlier in his opening statement about parts of our budget 
that have suffered in some budget issues lately. The President 
is asking to have that funding restored. We would certainly ask 
for the opportunity to do that.
    Mr. Chairman, it is a pleasure on my part to be able to 
introduce myself to the Committee. I have had a chance to meet 
with some of your staff. We look forward to continuing 
collaborations and being able to support you as you move 
forward with the important work that you have.
    Thank you.
    Mr. Duncan. Thank you very much, Mr. Dunnigan. Very fine 
testimony. Both you and Administrator Bodine mentioned the 
Katrina damage. I had the privilege of leading an 11-Member 
delegation down there about three weeks after that happened. 
The devastation was just unbelievable. You could not really 
appreciate it as much seeing it on a TV screen as in person. 
Unfortunately, apparently much of that damage is still down 
there and will be for awhile.
    Thank you very much for the work you have done on it.
    Mr. Dunnigan. Thank you.
    Mr. Duncan. Chairman Baxter?
    Mr. Baxter. Thank you, Mr. Chairman and Madam Ranking 
Member and Members of the Committee. My name is Bill Baxter. I 
am the Chairman of the Tennessee Valley Authority. On behalf of 
the board of directors and the employees of TVA, I want to tell 
you, thank you for this opportunity to be here today. It is an 
honor.
    Excuse my voice. I am a basketball fan and I have been 
screaming during March Madness here.
    Mr. Duncan. Unfortunately he is a Duke fan, and not a 
Tennessee fan.
    Mr. Baxter. Well, Duke and Tennessee, for law school, and 
both are doing well. They may meet this year.
    Director Harris and I look forward to welcoming six new 
members of the TVA board that have been now confirmed by the 
United States Senate just this last week. Having these new 
board members in place will complete TVA's transition to a 
modern part time board structure that Congress laid out in late 
2004. The new board will consider long term policy, budgets and 
rates, and hire a CEO to manage the day to day business of TVA.
    With the new board, TVA will continue its mission of 
service to 8.6 million consumers in the seven State region in 
three key areas: providing affordable reliable power; serving 
as a steward of the region's natural resources; and supporting 
economic development.
    As you know, TVA is 100 percent self-financing. There are 
no congressional appropriations that we seek. However, Congress 
appropriately has oversight responsibility for TVA in many 
capacities, and we are very happy to report to this Committee 
today.
    TVA generates power from a diverse mix of coal, nuclear, 
hydro, natural gas, and renewable sources, and in 2005 TVA's 
power system had its best performance in its 72 year history. 
TVA met back to back peak demands during the summer and had its 
sixth year of 99.999 percent transmission reliability.
    We are also on schedule and on budget to bring online the 
Nation's first nuclear reactor in the 21st century. In May of 
2007, Browns Ferry Unit One will add 1,280 new megawatts of 
safe, low cost, zero emissions generating capacity to our 
fleet.
    As steward of the valley's natural resources, we are 
continuing to improve the way we manage the Tennessee River, 
which is the backbone of the valley and at the heart of TVA's 
mission. Managing this river system, which is the fifth largest 
in the United States, requires a careful balance of many 
diversified stakeholders' needs.
    We are also working hard to ensure the valley's air will be 
cleaner for our children and grandchildren. Our air quality 
today in the Tennessee Valley is the best it has been in 
decades. When we complete our current clean air commitments, 
TVA and its ratepayers will have invested $5.7 billion in one 
of the most aggressive clean air programs in the Country.
    In economic development last year, TVA partnered with 
public officials in local communities to help attract or retain 
57,000 jobs and leverage almost $3.6 billion in new capital 
investment. In addition to technical assistance and low 
interest loans, we are now also providing communities with 
tools to attract specific industries.
    In order to continue to excel in meeting our mission for 
the valley, we are committed to a disciplined approach to 
improving our financial performance. TVA must reduce its total 
financial obligations which include both statutory debt and 
alternative financing. I am pleased to report that since the 
end of 1996, TVA has cuts its total financial obligations by 
$2.1 billion and our strategic plan, which we have submitted to 
OMB, calls for by 2016 further reducing our debt by $7.8 
billion.
    We believe we can meet this goal if we constrain our 
internal costs, and we recover the increased costs of fuel and 
purchase power that we have all seen recently. These costs are 
increasing dramatically for utilities all across the Nation and 
we are doing our best to mitigate them. We are working closely 
with our customers on long term solutions and we are cutting 
our own costs to offset some of these increases.
    Unfortunately, we must pass along some of these increases 
to our customers and we are endeavoring to keep those to a 
minimum. As you know, as I said earlier, TVA is entirely self-
financing. In preparing our fiscal year 2007 budget, we are 
projecting revenue of around $9 billion. About $1 billion will 
be spent on capital projects supporting improved transmission 
reliability, cleaner air, and the restart of the first nuclear 
power plant in America.
    Since fiscal year 2000, TVA has funded its stewardship 
activity solely out of power revenues, rather than out of 
appropriations. In fiscal year 2007, TVA will spend $84 million 
on water and land stewardship activity. Beginning with our 
annual report for fiscal year 2006, TVA will file financial 
reports with the SEC. In fiscal year 2007, we will begin 
complying with portions of Sarbanes-Oxley as well.
    TVA is transitioning now to a new management structure that 
I believe will help TVA lead itself into the future. It is also 
important to note what is not changing at TVA, and that is our 
dedication to our mission of service to the valley and to 
continuing to improve our financial strength.
    We will continue to work with the Congress and the 
Administration and with all of our stakeholders to ensure that 
we achieve these goals.
    I want to thank you again for the opportunity to be here 
and I look forward to answering any questions that you might 
have.
    Thank you, Mr. Chairman.
    Mr. Duncan. Thank you. Ms. Johnson and I have questions, 
but I think we will go first to members, and first to Mr. 
Gilchrest.
    Mr. Gilchrest. Thank you very much, Mr. Chairman.
    I have three questions, actually four since TVA is here, I 
am going to ask you, you can be thinking about this. This will 
be the fourth question. BP and Shell have both said that fossil 
fuel is not in their future. I would like to know at TVA, what 
is in your future.
    Forgive me if I say Jack or Sue or Ben. I do not mean, you 
know, you are all honorable. If I get caught up in a moment and 
I say Jack, but anyway, Jack, you referred to Katrina. I think 
everybody, including this Committee, did extraordinary work to 
heal the souls of people who lost their lives and lost their 
homes and got separated and things like that.
    I think what we saw in Katrina, though, was human activity 
was grossly incompatible with nature's design in that region, 
and when you had that huge hurricane, we had this enhanced 
destruction. The first question is, when you look at all these 
programs in NOAA, in EPA, do you look at the fundamentals of 
the physics of the system upon which you are trying to repair 
or clean up or restore, which is basically geology and 
hydrology of a particular region?
    Now, the fundamentals of an ecological system are the 
geology and the hydrology of that system. So when you take a 
look at, which is what my next question will be, a prosthesis 
to correct or eliminate some of the degradation, do you look at 
that prosthesis, which whatever it might be, a sewage treatment 
plant or a berm or a barrier or a levee or whatever, do you 
look at the ecological system upon which that will be working? 
The first question.
    The second question, the State of Maryland has come up with 
something called a flush fee. I know that the Federal 
Government certainly cannot do everything for all the sewage 
treatment plants and all the revolving loan funds. So Maryland 
has really stepped up to the plate and generated about $60 
million, $70 million, $80 million a year by charging every 
homeowner $30 a year, which is pretty good.
    The question, though, is, the technology that we use to 
eliminate the problems of sewage and things like that, is that 
the whole answer to degraded waters? Technology is a 
prosthesis. It is rarely as good as a natural design. So are we 
developing, and this is not a Federal question, though, because 
it is all local land use issues, but do you think we are 
developing our open space faster than we have the technology to 
restore our waters? That is the second question.
    The third question is, since we want to have maximum 
returns on our investment, Secretary Johnson has said that at 
EPA, do we look at a big picture of how to? I mean, I have 
lines and lines of stuff that I wanted EPA and NOAA here for 
restoration of the Chesapeake Bay and things like that, just 
lines and lines of stuff that we resubmit every single year.
    It seems to me in certain regions of the Country that open 
space is a better filtration system for air deposition or other 
forms of pollution to clean bodies of water. It is possible to 
re-look at this system of funding in all these various things, 
and then say for the first five years we are going to, and 
there are a lot of willing sellers, purchase acres and acres of 
easement, development rights in certain areas, so these areas 
can have this natural process at work, and in my region, most 
of that are wetlands.
    So I guess, do you look at the ecological structure before 
you put in a particular structure? Do you think we are 
developing faster than we have the technology to stay up with 
it, and the maximum effective use of the dollars? I do not know 
if we have time for all these answers, but those are my 
questions.
    Mr. Duncan. Let me say this. We are about to get to a 
number of votes in just a few minutes, so I would ask that you 
make your responses very, very short, so we can get to some 
other members here.
    Mr. Gilchrest. They can call them on the phone, Jimmy. 
Okay?
    Mr. Duncan. Go ahead, Mr. Grumbles.
    Mr. Grumbles. The Administrator of EPA and the head of NOAA 
entered into a memorandum of agreement a little over a year ago 
to work together towards sustainable development in coastal 
areas to better instill principles to provide not Federal 
regulations or mandates, but technical assistance and planning 
for local officials to take into account the resiliency and the 
stressors in the coastal environment.
    You mentioned geology and hydrology and technology. There 
is also sociology, and recognizing a lot of it is local land 
use planning. I think the agency, our perspective and the Water 
Program's perspective, is to provide technical assistance and 
planning assistance to make those decisions, and recognizing 
that buffers, barriers, coastal barrier islands can be 
extremely helpful and protect not just the environment, but 
people, too, in the instance of hurricanes and storms.
    Mr. Duncan. Mr. Dunnigan?
    Mr. Dunnigan. Yes, thank you, Congressman.
    I think I would second what Mr. Grumbles said. You see 
this, of course, in the collaboration between NOAA and EPA 
working in the Chesapeake Bay, where we focus on trying to make 
tools that are available. If we take it back to your question 
of Hurricane Katrina, in the weeks immediately following, part 
of what we did was to put technical experts on-scene to begin 
working with local governments, our experts who understood the 
geology and the physical properties, to help that community 
begin to re-vision what their future could and ought to look 
like and how we could help do it.
    But as you said, these are decisions that need to be made 
by the people that live there. What we can do is to help 
provide the technical expertise for them to do that.
    Mr. Gilchrest. Thank you, Mr. Chairman.
    Chesapeake, an environmental biography by John Winterston, 
it is a great read. You guys would love it.
    Mr. Duncan. All right.
    Mr. Bishop?
    Mr. Bishop. Thank you, Mr. Chairman. I know we are getting 
called for votes, so I will go quickly.
    Mr. Grumbles, it is nice to see you again. I have 
essentially the same set of questions that I had last year. The 
funding for the Long Island Sound Study is going in the wrong 
direction. In fiscal year 2005, we spent $6.8 million on the 
Long Island Sound Study. In fiscal year 2006, we provided $2.8 
million. The President's budget request for fiscal year 2007 is 
$467,000.
    I guess I have an observation and a question. My 
observation is that within months of signing a bill that 
authorizes up to $40 million for the Long Island Sound Study 
Project, how could we get to a request that is $467,000?
    I guess my other question, not to be flip, but what does 
the Administration know about the Long Island Sound that the 
rest of us who live near it don't?
    Mr. Grumbles. Congressman, I know your intense interest and 
passion in making progress on the Long Island Sound. We 
certainly recognize the importance of accelerating progress on 
Long Island Sound. A couple of things, one is the funding 
request is, as you noted, approximately the same as previous 
years, and that is to provide funding for the study, for the 
office activities, recognizing that it is not attempting to 
fund implementation of the comprehensive conservation and 
management plan. There are other tools and resources that we 
all must use to help facilitate that.
    The agency has been working very closely over the last year 
and a half with the Army Corps on an intensely important effort 
on the dredge material management plan for the Long Island 
Sound. I know that we all recognize the need to improve the 
tools and accelerate market based approaches through trading. 
The water quality trading efforts in the Long Island Sound, we 
are very excited about.
    We want to provide the technical assistance and help the 
States continue the reduce nutrient loadings into Long Island 
Sound, recognizing that the Federal funding may not be 
increasing. It is going to take a partnership of State and 
local and nongovernmental efforts to make progress in the Long 
Island Sound.
    Mr. Bishop. I thank you for that. I guess my response would 
be that you spoke before about the department having two 
guiding principles. One was sustainability and the other was 
stewardship. I would just suggest that stewardship is still 
very much required for Long Island Sound and it does have to be 
a multi-governmental effort. The Federal Government, in my 
view, needs to continue to be an active player in providing the 
stewardship for the Sound.
    If I may have one more question, Mr. Chairman? I think this 
is for Ms. Bodine. I want to ask about the Superfund. The 
Administration has once again not recommended to the Congress 
that the Superfund tax be reinstated. It also continues to 
forego cost recoveries from responsible parties. So my question 
is, does the Administration believe in the principle of the 
polluter pays? And if it does, why is it not requesting that we 
reinstate the tax? And if it doesn't, why doesn't it?
    Ms. Bodine. The Superfund statute does have parties 
responsible for pollution pay for cleanups, and that is through 
the liability provisions. As I noted earlier, the President's 
budget actually increases the funding for enforcement efforts, 
and that we have a cumulative level of effort from PRPs of $24 
billion. In fact just in fiscal year 2005, it was $1.1 billion 
of commitments and cost recoveries.
    On your question relating to why aren't we doing more cost 
recovery, well, we certainly are. It is better to have the 
PRPs, the responsible parties, pay for the cleanup up front, so 
then it is not the taxpayer dollars being spent. Second, where 
EPA has spent money, what we have been doing is recovering 
those costs and putting them into special accounts so that we 
can then use those funds to conduct more cleanup.
    So if you are suggesting that cost recoveries are going 
down because you are not seeing that amount deposited to the 
Trust Fund, I would say no, that is not the indicator. Cost 
recoveries are very strong, but we are able to spend that money 
to do more cleanups at the site. Again, that is PRP money.
    On the taxes, if you looked historically, there has never 
been a relationship between the amount of funding that is in 
the Trust Fund and the level of appropriations for the 
Superfund Program. The Superfund Trust Fund is an on budget 
trust fund. I know this Committee understands trust funds very 
well. There are no firewalls. It is part of the unified budget. 
It is subject to discretionary spending caps. So the 
appropriations annually have been relatively steady throughout 
the years, and have borne no relationship to the level of 
funding in the Trust Fund.
    Mr. Bishop. Thank you.
    Mr. Duncan. Thank you very much.
    We have run into a problem that I hoped we could have 
avoided, but we have six votes, which means we are going to 
have to go into a very lengthy break. I apologize. Before I do 
this break, I do want to go to Chairman Baxter first of all. I 
did not give you a chance to respond to Mr. Gilchrest's 
question about fossil fuel. Secondly, and more importantly to 
the people of our region, let me just ask you this. Last fall, 
the TVA had a rate adjustment, a rate increase. You mentioned 
some of these increases that TVA is facing. Natural gas prices 
have exploded. Almost all of our energy costs have been 
shooting way up.
    Do you think that TVA is going to have to have another rate 
increase anytime soon? What do you see in the near foreseeable 
future, as best you can?
    Mr. Baxter. As soon as the new board gets with us, which we 
hope will just be in a few weeks, we will go to work on our 
2007 budget. That will be a part of that, what are our revenue 
projected requirements and how do we fund those.
    We have been discussing now for nearly a year with our 
distributors, rather than doing base rate increases, which 
should be attuned to what our underlying cost of doing business 
is at TVA, that we need to consider doing what most other 
utilities in our region do, which is have a fuel clause 
adjuster, which is an automatic formula that passes through 
those costs up and down. We are now tracking that with our 
distributors to see how that would work and that mechanism 
would work. We have gotten very favorable response to that.
    So you could very well see that as part of the 2007 budget, 
where the actual base rate for electricity from TVA would go 
down, and there would be placed a fuel clause adjuster that 
would go up and down automatically with those fuel costs, and 
be audited by our distributor customers.
    Mr. Duncan. As much as possible, you know, our economy 
overall is very good, primarily because our area has become one 
of the most popular retirement areas in the Country. We have a 
lot of upper income moving from other parts of the Country.
    But that does mean that there is still a pretty wide gap 
between the people moving in and we still have a lot of lower 
income people in that region. I hope that the new board will 
keep in mind that there are a lot of people who still have 
great difficulty in paying for their utility needs, and I think 
we always need to try to keep that in mind.
    We are going to have to break at this time. We will come 
back as soon as we can, but it is going to be a little while, 
and I apologize to you. Mrs. Kelly and some others want to ask 
some questions, so we cannot just put them in writing, I don't 
think.
    Ms. Johnson?
    Ms. Johnson. Mr. Chairman, I don't think I am going to be 
able to come back after this series of six votes, but I would 
like to submit some questions and wonder if I might request 
they be responded to in a couple of weeks.
    Mr. Duncan. All right.
    Ms. Johnson. Thank you.
    Mr. Duncan. Thank you very much.
    [Recess.]
    Mr. Duncan. We will go ahead and start back. Let me 
apologize. I chaired the Aviation Subcommittee for six years, 
and now I am in my sixth year of chairing this Subcommittee. 
This is my 18th year here overall. I have never had a 
Subcommittee or Committee meeting interrupted by that many 
votes all at once, although we did have an Aviation hearing one 
time in which we had the presidents of all the major airlines, 
and Congressman Jose Serrano from New York got mad and called 
24 votes in a row, but we called off the whole hearing. We did 
not really get started on it. So I remember that.
    I do apologize for making all of you wait. I would have 
been satisfied to submit these questions to you in writing, but 
Mrs. Kelly has some questions that she wants to ask. Until she 
gets back, I am going to start going over some things.
    Mr. Grumbles, as you could tell from my statement, I am 
particularly interested in the funding of the SRF Program. You 
talked about the $688 million, and said that that would produce 
$3.4 billion in total funds, and that you thought that was 
enough. The $688 million is $200 million below the enacted 
level last year, and I am sure you realize that.
    Also, I think we had $4.9 billion in total funding, 
approximately $5 billion in total funding. Do you see that gap 
between the $5 billion and the $3.4 billion that you are 
talking about? Do you see that as a problem? If not, why not? 
Because we get all these groups, that tell us that we have the 
Water Infrastructure Network, and so many other groups and 
analysts and experts who tell us that the needs are out there; 
that over half of our water infrastructure is over 50 years 
old; that much of it is over 100 years old. And they have even 
come up with a figure, a size $400 billion over the next 20 
years. What do you say about all that?
    Mr. Grumbles. Yes, sir. Mr. Chairman, I appreciate the 
question, and I have a couple of points to make. One is that 
EPA recognizes that there is a large gap between the estimated 
needs and the estimated revenues over the next 20 years. We are 
saying from a Federal perspective, for the Clean Water SRF, 
that there needs to be a continued Federal commitment of seed 
money, and in 2004 the Administration agreed to a plan, laid 
out a plan that said, okay now, if you have an investment over 
a number of years through 2011, the cumulative amount, $6.8 
billion, coupled with some key assumptions and with the pillars 
of sustainability, which also means full cost pricing and local 
ratepayer support, we think we can make significant progress in 
eliminating that gap.
    Now, one of the key points that we need to make and agree 
with Members of Congress and others is that it requires a 
shared effort. The history of the water infrastructure programs 
and funding across the Country has been by and large that 90 
percent of the revenues and investments going into 
infrastructure have been at the local or State level. We do not 
expect that to change dramatically over time.
    What we are seeking to embrace is a much more aggressive 
approach for leveraging those funds that are going into the 
Clean Water SRF, plus additional concepts like full cost 
pricing and doing more with less. The leveraging, the $3.4 
billion, I appreciate the question because it is often easy to 
either miscommunicate it or confuse it. That level is what we 
would project at the level that the fund would be revolving at 
in 2015 through 2040 on an annual basis without Federal funds 
going in.
    The dollars you mentioned, the $5 billion or the nearly $4 
billion amount, what that currently reflects is the Federal 
funds plus the State returns. It is not really a self-
sustaining revolving level. So when we say the $3.4 billion, 
that is the goal we are shooting for after Federal funding into 
the SRF would stop by 2011.
    Mr. Duncan. All right.
    On another issue, you know that I have had particularly one 
community in my District, Marysville, Tennessee, my second 
largest county that has had real concerns or problems about the 
blending issue. I wonder, and there have been communities all 
over the Nation that have been confused or concerned about that 
and potential costs. In fact, I have been told about possibly 
extremely high costs that could potentially be there. Where 
does the EPA stand on that now? Have you got that all 
straightened out so that people will stop bothering us about 
that?
    Mr. Grumbles. Well, we are trying our hardest, Mr. 
Chairman. We proposed a peak flow policy, a blending policy 
that we are very excited about because it represents progress 
on that difficult issue, where in the past you had very 
strongly held opposing views. We are going through the comments 
on that policy and we hope to finalize it soon.
    What we are striving for is an approach that provides some 
greater consistency across the Country in the different 
regions.
    Mr. Duncan. Right.
    Mr. Grumbles. But also recognizes that meeting the Clean 
Water Act requirements at the end of the pipe through 
technology and through the right process is important. I can 
tell you, Mr. Chairman, on the issue of sustainability, we also 
have an important component and that is affordability. The 
utilities across the Country are asking us to take a new look, 
a fresh look at the affordability policies on clean water 
infrastructure financing with respect to sewer overflows and 
long term control plans. We are committed to reviewing that 
because we recognize that that is one of the issues that comes 
across your desk very frequently, and we have to deal with that 
as well.
    Mr. Duncan. Well, that has been I think the main concern. 
It is a legitimate concern because all these people that run 
these water districts and these water utilities around the 
Country, they want our water to be as clean and safe as 
possible. In fact, I am sure they have a lot more concern about 
it than just the average person out there, so they want to do 
everything they can. But they also know that it is difficult to 
come up with the money for some of these things.
    Let me ask you one last question. Everybody today is 
throwing out security, talking about security on this and that. 
Do we have any problem at all, or should we be concerned about 
the security at our water facilities around the Country?
    Mr. Grumbles. Mr. Chairman, one of the priorities in the 
Administration's budget, and certainly the priority of the 
agency's operating programs over the last several years has 
been to work towards instilling a sense of water security, 
institutionalizing it more within the context of the clean 
water programs and the drinking water programs.
    We do have more work to do. We have made progress. The 
utilities and States, drinking water and wastewater agencies 
are taking it very seriously, but we do have a lot of work to 
do. The Water Sentinel Program that is requested in the 
President's budget, the $38 million for that, is trying to 
emphasize in a comprehensive, coordinated monitoring and 
surveillance approach, particularly for the drinking water 
systems across the Country, using five different data streams 
for routine as well as triggered monitoring of contaminants of 
concern, physical surveillance using public health data and 
records, to really keep an eye, a wider eye and a more attuned 
ear to potential problems, particularly in distribution 
systems.
    So we do have more work to do on the water security front.
    Mr. Duncan. I said I was not going to ask you any more 
questions, but you used to work for our friend, Chairman 
Boehlert. You heard me mention that he used to enjoy making 
anti-TVA comments. Were you the one responsible for coming up 
with those comments or questions?
    [Laughter.]
    Mr. Grumbles. I think Susan can answer that question.
    [Laughter.]
    Mr. Duncan. All right.
    Assistant Administrator Bodine, the staff that you left me 
with, which is a very good staff, they tell me that it is very 
difficult to try to determine exactly how Superfund money is 
spent, and that half of it, or over half of it is not being 
spent on actual cleanup work. I remember, of course even that 
is much better. I remember reading a lengthy article about the 
Superfund years ago, and that article said that 85 percent of 
the money at that time was being spent on bureaucratic 
administrative costs, and particularly the cost of the 
litigation, paperwork and so forth.
    Now, since you have been over there, what have you found 
out about this? Have you been able to get a handle on that? Do 
you think that that still is a problem? If it is, what do you 
propose to do to improve the management of Superfund resources?
    Ms. Bodine. Thank you, Mr. Chairman.
    That is an issue that I have studied for a long time. I 
would say that there are still challenges within the Superfund 
Program in terms of dealing with the most efficient, effective 
way of using its resources. There have been a number of 
studies. The Administrator had commissioned when he was Deputy 
Administrator a study called the 120 Day Study, that had a 
number of recommendations for efficiencies, some of which I 
cited in my testimony, ideas like benchmarking; ideas like 
expanding the oversight of remedies that are coming through to 
save costs; concepts like perhaps reexamining our workforce 
allocation to make sure that our resources are distributed in 
the most effective way.
    The response, the follow-up activities to those 
recommendations, are underway and are under my oversight. They 
are now my responsibility, and I take that very seriously. That 
is something that we are going to continue to be working on for 
a long time, to try to make sure that we are spending the 
resources effectively. It is not a six month project, but over 
the next three years I hope that we then will be reporting back 
to you that we have succeeded in making the program as 
efficient as possible. But I will concede to you that there is 
still work to be done.
    Mr. Duncan. How is the Supreme Court's decision in the 
Cooper Industries case impacting the spending on the Superfund 
and Brownfields? Is it having an effect?
    Ms. Bodine. Well, that case had to do with the ability of 
one private party to recover costs from another private party, 
so it has not impacted EPA's activities, but we do hear 
anecdotally, and I don't have data on this, but anecdotally we 
are told that it could have a potential problem of making 
people reluctant to step forward to clean up voluntarily if 
they then cannot recover their costs because someone else is 
responsible, but I don't have data on that. That is anecdotal.
    Mr. Duncan. Roughly, what percentage of the Superfund 
Program is paid for by private parties or from private funds? 
Do you know, from the settlements of lawsuits and those types?
    Ms. Bodine. I do not have an exact number. I would say that 
for example at the end of last year, in fiscal year 2005, the 
responsible parties did make payments and commitments to do 
future work that totaled $1.1 billion. That was a high number. 
That was a good year. But the responsible party commitments 
have been at a fairly good pace. The appropriated funds were, 
again, roughly about $1.25 billion.
    Mr. Duncan. You heard, I can't remember whether it was Mr. 
Bishop or Mr. Pascrell mention that either in the last year or 
the average number of Superfund sites cleaned up during the 
Clinton years was 87 or something or 86 or 87, and now you are 
proposing to clean up 40 Superfund sites. But you also mention 
that, if I heard you correctly, that over 90 percent of the 
sites on the national priorities list, the NPL, have been 
cleaned up. Is that correct? Or work was being done?
    Ms. Bodine. Correct. I said that cleanup was underway at 
over 90 percent. Either cleanup was completed or underway at 90 
percent of the sites.
    The phenomenon we have right now is in the early days of 
the program, there were few completions simply because of the 
effect of getting the program up and running and moving sites 
through the process. In the 1990s, there certainly were a 
number of sites that were ready for completion at that time, 
and Congress was also very concerned about completions, and 
therefore there was a policy within EPA of completing as many 
sites as possible.
    If you look at the statistics on EPA's out of pocket costs 
with respect to those sites, what the agency was paying to get 
those construction completions, the statistics that I have were 
from 1993 to 2000, but you have 659 sites completed from 1993 
to 2001, so 659 sites had construction completed during those 
years. But 511 had EPA costs of less than $5 million. In fact, 
262 of those, also included in the 511, had EPA costs of less 
than $1 million, and in fact 63 sites had no remedial action at 
all.
    So what you see was very rapid construction and completion 
of sites that really were not requiring a significant 
investment. If you look at the sites that we have remaining, 
for example out of a universe of 581 sites that are not yet 
construction complete, 128 of those are Federal facilities, 
which are huge sites, many operable units, and 106 of those, in 
addition to the Federal facilities, are what we call mega-
sites, where the costs are over $50 million, and 124 of those 
are sites that are new to the program. They have been on the 
NPL for less than five years.
    So I guess in response, what we are seeing is a management 
of the program of less expensive site completions. What we have 
left are more expensive sites, and that is what I am now 
responsible for managing those sites. What I would like to do 
is manage those sites on the basis of risk, and deal with these 
to address the risks that are presented.
    Mr. Duncan. Well, that is a good explanation.
    Let me ask you this. I mentioned that you did some good 
work on our Brownfields legislation a few years ago. Where do 
we stand on those grants? Do you feel like there has been some 
real progress made, good work done? There has been a decrease 
in the requested funding for the grants program for 
Brownfields. That does not necessarily mean that the overall 
spending on Brownfields, though, is going down. Where do we 
stand on all that? What can you tell us?
    Ms. Bodine. Well, first the request is in line with what 
the Brownfields appropriations have been. The request 
represents steady funding for the Brownfields Program. With 
this request, we would expect that with the Federal dollars, we 
would be providing grants to assess 1,000 Brownfields sites and 
that we would be providing 60 cleanup grants.
    The goal then is that those dollars, and that is the 
Federal investment, would then leverage at least $900 million 
in cleanup or redevelopment funding, as well as 5,000 jobs. So 
the beauty of the Brownfields Program is that the relative 
Federal contribution is small, but then you end up leveraging a 
tremendous amount of private cleanup and redevelopment dollars, 
which then do translate into jobs, which is the goal of the 
revitalization.
    Mr. Duncan. And as I understand it, there were about 6,000 
Brownfields sites identified. Can you tell us how many of those 
have been redeveloped or put back into productive use?
    Ms. Bodine. Six thousand as a universe?
    Mr. Duncan. What I have from the staff says that since 
1995, more than 6,000 Brownfields sites have been assessed. It 
tells that over 2,100 properties have been made ready for 
reuse. That is what I was referring to. I did not have it right 
at hand when I mentioned that. I just wondered. Is that similar 
to the information you see?
    Ms. Bodine. I have the total numbers. I do not have the 
breakdown, but I can certainly get that to you in terms of how 
many properties. We track, or our grantees do, and we are 
tracking what the State voluntary cleanup programs are 
accomplishing as well. I do have a statistic that just shows 
the growth of the effort in this area, and that is that before 
2000, apparently State voluntary cleanup programs had worked on 
about 5,000 sites, but between 2000 and the present, that 
number has gone up to 50,000.
    Now, that does not mean they all required cleanup, but part 
of making things available for use is in many cases doing a 
site assessment to say that the properties are acceptable. Now, 
that does not mean Federal dollars were spent on that 50,000 
either. But it means that there has been tremendous support and 
expansion of Brownfields efforts in recent years that I think 
everyone should be proud of.
    Mr. Duncan. Well, I have a couple more questions, but I was 
going on and on because I had gotten word that Mrs. Kelly was 
not able to come back, and now she is here. So I am going to 
turn it over at this time to Congresswoman Kelly.
    Mrs. Kelly. Thank you, Mr. Chairman.
    I have some very serious concerns I would like to raise 
with Ms. Bodine. I have serious concerns about TCE. It is a 
toxic chemical that has been associated with many, many health 
risks, including birth defects and cancer. The Hopewell 
Precision Superfund site is in my congressional District. It is 
contaminated with TCE. On numerous times, I have raised the TCE 
issue with EPA officials, and I feel that the EPA has actually 
been very responsive on the ground at the Hopewell Precision 
site, and they have been very helpful to the families living 
there. But the EPA here in Washington has not demonstrated that 
kind of urgency with regard to TCE issues.
    The EPA issued a TCE health risk assessment in 2001. That 
risk assessment determined that TCE is far more toxic than they 
previously thought. Yet instead of acting immediately, three 
years later in 2004, that report was referred simply to the 
National Academy of Sciences for more review.
    So here we are nearly five years later and we still do not 
have a clear national standard for addressing the TCE 
contamination. My constituents and I really feel that the EPA 
is not focusing on the health risks that are associated with 
the TCE problem. I really have been pushing hard to get some 
kind of a designation and some information on it.
    Along with several of my House colleagues, we have really 
asked for a protective interim approach to the TCE problem. 
Apparently that assessment still has not been finished from the 
National Academy of Sciences.
    So I wonder if you could tell me, why won't the EPA issue 
an interim standard on TCE while we are waiting for the 
National Academy of Sciences to do this re-review?
    Ms. Bodine. Thank you, Congresswoman.
    Steve Johnson, the Administrator of EPA, is a scientist. If 
you know his background, you know that he was a career employee 
and came out of the Office of Pesticides and Toxic Substances. 
He is very strongly committed to using sound science, the best 
available science to address environmental problems.
    In the 2001 draft risk assessment, there were questions as 
to the adequacy of the science. He felt that it was appropriate 
to get the best available science, and that is why he has 
referred that to the National Academy of Sciences. That does 
not mean that work is not underway and not ongoing at sites 
that have TCE vapor intrusion issues.
    As you know, Region II is out there assessing sites and 
doing remedial actions, removal actions, and dealing with the 
TCE issues. They are using the draft guidance from 2001, as 
well as New York State. They are working with the New York 
State Department of Health to set their levels. Essentially, 
that would be the screening levels.
    If you have the vapor intrusion problem, the remedy often 
is similar to what you would do with radon, which is 
ventilation. For example at your Hopewell site, the systems 
have been installed in at least 37 homes. There is activity. So 
I guess what I am trying to convey to you is while we are 
getting the best available science on the site's level that is 
recommended, we are still moving forward with the science that 
we have today, which is the existing guidance plus the State 
levels.
    Mrs. Kelly. But there is still no interim standard. While 
you are waiting for the National Academy of Sciences to come up 
with a scientific background, there ought to be something that 
is a standard, because we know that this is toxic. You know, 
and the EPA knows, everybody knows that this is toxic. We need 
a standard and we need to do something.
    I would think it would be pretty easy for you, since you 
already have a lot of information. This has been going on since 
2001. I would think it would be pretty easy for you to come up 
with some kind of an interim standard until we get an absolute 
standard that comes from the National Academy of Sciences.
    The EPA on ground in New York has been very helpful. I do 
not want to cast any aspersions on their work. They have been 
helpful and they have helped with ventilation in this kind of a 
thing. The problem is we have this plume moving, and the 
constituents that I represent are very concerned that this is 
moving on down and we simply do not know.
    You have to break a certain number on a piece of paper 
before anyone will come in and help you remediate. In the 
meantime, how do you know it is not toxic up to that number? 
That is the problem.
    So I am trying to find out whether or not you would be 
willing to look at doing some kind of an interim standard, 
because nothing is really black and white. There are usually 
levels of gray. If we are moving into a gray area on the TCE in 
these wells, and that gray area is something that might involve 
being a toxic level for children because children's toxic 
levels are lower than adults, maybe there is something that we 
should put in as a standard right now to take a look at it.
    Also, I wanted to ask you about the status of the re-review 
over at the NAS. When are they going to release those results? 
We are hopeful that we can get them sooner rather than later 
because they have had it for awhile. I know it takes time to do 
the studies, but I really am hopeful about two things. I would 
like an answer to that first question.
    But also if you would, give me some kind of, take a look, 
just take a look and see if we can't get some kind of an 
interim standard, because I am concerned that the standard will 
come out and it will be lower than what it currently is. And 
then we will have people on wells with a standard that they 
were told was fine, a level that they were told was fine, and 
it is not fine.
    Ms. Bodine. There isn't a standard right now that the 
agency can stand behind and say that it is based on best 
available science, which is why the regions are using, as I 
said, they are using the draft guidance as well as working with 
States on establishing the levels. Region II is going out and 
assessing properties and they are addressing the properties in 
a very proactive way.
    So work is not halted while we are getting a standard that 
we can stand behind, because right now there is not one that we 
can stand behind and say this is the national guidance; this is 
the level.
    Mrs. Kelly. And you are unwilling to give us an interim 
standard or some kind of, just give us like two numbers. These 
are the worry areas, from this to this. If you give us some 
kind of levels, at least the people that I represent will have 
a cohesive understanding about when they should start to worry.
    Ms. Bodine. Then I need to go back and talk to Region II, 
because my understanding is they are not standing back and 
waiting for the NAS study to come back. They are establishing 
their levels based on their best professional judgment, which 
includes using the draft guidance as well as the State 
Department of Health levels.
    The NAS report, it is a two stage report. The first stage 
will be out in May, 2006, but that was really essentially the 
existing body of knowledge, and they estimate that the peer 
review on a final assessment would be completed in 2007, which 
means that the number would be completed in 2008. So what we 
are doing is getting a peer review by the NAS on TCEs.
    Mrs. Kelly. You are telling me that these people in the 
area have to wait until 2008 for something that started in 
2001? When you are talking about health risk, waiting for seven 
years to find something out. I am not holding you personally 
responsible. Please understand that. What I am trying to do is 
hopefully get you to put some pressure on this situation so we 
can get a response to help these people.
    The District I represent isn't the only one that is 
contaminated with TCE. We have got to have something to tell 
our people. Especially women and children are very, very 
concerned. Our bodies are smaller, our children. Who knows what 
is going to happen if you get pregnant or if you are drinking 
this water? How is that going to affect your child? We do not 
know.
    Now, you are saying we have to wait until 2008. That is 
really unacceptable.
    Ms. Bodine. But remember, the EPA is not waiting and is 
being proactive and is going out and working in your 
communities on these sites.
    Mrs. Kelly. On the present level, but the question you 
raised yourself is that you were not sure that that science 
established that level was correct. That is why in 2004 the 
request went from your agency to the NAS. And the NAS is, if 
anything, just dragging its feet apparently, because they got 
it four years ago.
    I only know from my own personal experience as a bench 
chemist in a manufacturing situation and as a medical 
researcher for Harvard University that unless something is 
requested and it is requested right away, it does not get done. 
It gets done partially and then gets pushed off until somebody 
else gets it. Things get put in front of it.
    I would suggest that the people in this area who are 
battling this problem and this plume is moving down and it is 
moving down into some very serious areas that we need to 
understand better, that force us to need to understand better 
what this level is.
    Please understand, I am very grateful for what the EPA has 
done to help the people there, but they have to wait until they 
have a certain level. They are told, oh, you have TCE, but you 
are not at the level where we are really concerned, so we are 
going to let you drink this and bathe in it and cook in it 
until you get the level that suddenly says, oops, emergency, 
and then EPA comes in and helps.
    I am asking for something that is more flexible than that. 
I am asking for something that works a little bit more easily 
to help these people protect themselves if we find out that the 
level of TCE is not a level that is currently established, but 
one that is in fact lower. Because that was the original 
finding, that the current level was established at a level that 
in fact was more, the TCE is more toxic than we thought.
    So that is the nature of my concern, because it is more 
toxic than we thought, I want to make sure that we get 
something.
    Ms. Bodine. Let me go back and talk to Region II about how 
they are doing the screening and get back to you then.
    Mrs. Kelly. I really would appreciate that.
    I do want to say to both you and Mr. Grumbles, it is a 
great pleasure to see you sitting here in this Committee with 
the word ``honorable'' in front of your names. I have to say 
that working with both of you, you deserve to have that 
``honorable'' designation. You have done a great deal of good 
work here and it is a pleasure to continue to work with you.
    I want to add one thing, though, to Mr. Grumbles, and that 
is the Clean Water State Revolving Fund. I Know that our 
Chairman has amply discussed this with you, but the fact that 
this is a loan program which gets paid back. It is not grants. 
It is not going to cost the way that a grant program does. I 
find the President's budget request simply unacceptable. I 
think that our Chairman feels the same way, and I hope that 
that will go back.
    I appreciate both of you. I appreciate all of you being 
here, and I really appreciate, Mr. Chairman, your forbearance 
in allowing me to have this discussion. Thank you very much.
    Mr. Duncan. Thank you very much, Mrs. Kelly. You are an 
outstanding member of this Subcommittee and I know your great 
interest and concern on these matters.
    Let me ask just two or three more questions, then we will 
bring this to a close.
    Mr. Dunnigan, the Resources Committee says that we spend a 
little over $8 billion a year on all ocean-related activities 
in this Country, and that is far more than any other country. 
Yet there has been a presidential commission that has 
recommended that we try to greatly increase that spending. Are 
we doing a good job on our ocean-related activities at this 
time? And if we need a big increase, what would it be spent on? 
Where are we falling short, if we are?
    Mr. Dunnigan. Thank you, Mr. Chairman.
    The United States is in a position where we are able to 
recognize the important role that the oceans and that our 
coasts play in the fabric of the life of America, as well as 
our economic productivity. So among the countries of the world, 
we are able to step forward.
    The U.S. Ocean Commission report highlighted a number of 
areas that needed further attention. The President looked at 
that very carefully and has directed the Federal agencies to 
move forward where we can within existing resources to be able 
to try to address those, to do our job better, to collaborate 
better internally, and with States and with our sister 
agencies.
    The problem you have here is really a question of a broad 
suite of national priorities, and where can this fit in. We are 
never going to be able to have obviously all of the resources 
that we all might like to have to do this job, but the issue 
really is one that has to be a matter of balancing and making 
difficult choices, as the Congress has to do, about where we 
are going to be able to make the investments and use the 
resources most wisely.
    Mr. Duncan. All right.
    Mr. Baxter, a more localized question; you touched on a 
couple of these things, but how much has the Browns Ferry plant 
been costing TVA on a yearly basis? And how much difference is 
that going to make when you get that started up here is it in 
2007?
    Mr. Baxter. Yes, sir. May of 2007, and I am proud to report 
to you we are on schedule and on budget. It is a $1.8 billion 
project over five years. So that has not been an even spend all 
the way through, but most recently $400 million a year has been 
the rate of spend. In 2007, that will go down since it will be 
a partial year.
    Then when we turn that on in May of 2007, instead of 
spending money every year, we will actually begin to enjoy some 
revenue from the sale of that low cost zero emissions power.
    Mr. Duncan. Do you know about how much?
    Mr. Baxter. That will be a swing of I would say anywhere 
from $600 million to $700 million a year from the spend side, 
but now to a revenue side.
    Mr. Duncan. I understand that now you are buying 12 percent 
to 15 percent of your power from private companies like Duke 
Power and others. Is that correct?
    Mr. Baxter. We have to buy in the hottest summer days in 
that range, and over an annual period of time approximately 7.5 
percent of our power was purchased last fiscal year because we 
are not generating enough with our own base load, and that is 
what Browns Ferry One will help us do, and will alleviate the 
need to purchase so much on the marketplace.
    Mr. Duncan. All right. You mentioned TVA's air pollution 
cleanup activities. The New Republic magazine three or four 
years ago had a big article about how our air and water are 
both much cleaner than they were 25 or 30 years ago. We have 
made great progress in both those areas. Do we need to do more? 
Yes, but we have made great progress.
    The bar has been raised in our area. They have changed the 
standard from a one hour .08 level, to an eight hour .12 
requirement, or vice versa, on the .12 to the .08, but they 
have gone from a one hour standard to an eight hour testing 
period.
    What that means, is that sometimes people have the 
impression that our air is getting less clean in the valley 
instead of cleaner. Tell me a little bit about what you are 
doing, and a little bit more about what you are doing through 
TVA?
    Mr. Baxter. You make an excellent observation. In fact, our 
own Senator Baker was one of the authors of the Clean Air Act 
back in the 1970s. The Clean Air Act has been a tremendous 
success. It set a bar for all of us that we had to achieve on 
reducing emissions of various identified pollutants, and we 
identified areas of the Country and communities that were out 
of compliance with those standards.
    Over a period of time and after the expenditure of 
literally billions of dollars in this Country, we achieved 
compliance in most all of those areas. Then as a result, 10 or 
12 years later, we tightened those standards and said, okay, 
now we want to take it down even further. And that would throw 
communities back into noncompliance and they would have to go 
to work again.
    This has happened, we are in about the fourth iteration of 
that now most recently. Of course, it becomes incrementally 
more expensive to achieve another percent of cleanliness in the 
year as you get closer and closer to 100 percent.
    TVA when we complete our $5.7 billion program at the end of 
this decade, we will have achieved 80 percent to 85 percent 
reductions in sulfur dioxide and nitrogen oxide, which are the 
two main pollutants that come out of our plants. Then we will 
get co-benefits with the reduction of mercury in that same 
neighborhood.
    So we are making tremendous progress. Like you, I grew up 
in East Tennessee. I can remember being young and going to 
church in a white shirt and seeing coal dust on your shirt when 
you came back home. That does not happen anymore. My four 
children, I guarantee you today, are breathing cleaner air than 
I ever breathed growing up in East Tennessee and I am proud of 
that.
    Mr. Duncan. I want to thank you. You are doing a lot of 
good work in that area and so many other areas.
    Finally, Mr. Grumbles, I read a few years ago a column by 
former Governor DuPont. He said that you could put every family 
of four in the State of Texas and give them three acres of land 
each and leave the whole rest of the Country totally empty. And 
yet, people look at map of the whole United States on one page 
in a book and they just cannot comprehend how huge this Country 
is.
    I guess the other side is that people say they want land 
around them, but they really don't. They want to be near the 
malls and the restaurants and the movie theaters. What I am 
getting at is this. The Federal Government owns or controls a 
little over 30 percent of the land. The State and local 
governments and quasi-governmental agencies have another 
roughly 20 percent. So you have about half the land in some 
type of public ownership now. And then we keep putting more and 
more restrictions on the land that remains in private hands.
    Governments all over are needing or demanding more money, 
yet we keep shrinking the tax base. I hear from homebuilders 
and developers at times that they are having some real 
difficulties with these storm water discharge regulations and 
sometimes they are fined and so forth, and that some of these 
requirements are duplicative of State and local requirements. 
In many, many areas, there is so little land less to develop 
that we are crowding more and more people into smaller and 
smaller areas. We are having to go to townhouses rather than 
homes. We are having to go to homes on postage stamp size lots.
    Home ownership has always been a really important part of 
the American dream. We do not want to limit that just to the 
wealthy. In this area, you see that, in a lot of places. Even 
in the area I live in, six miles from the Capitol here in 
Alexandria, you see homes are just out of sight.
    What are you doing in that regard? Are you trying to work 
with these developers and homebuilders in some ways to make 
housing more affordable? I think that is really an important 
challenge in this Country. When I see homes out here in 
Alexandria and other places around here that are asking $1 
million and $2 million for now, in my area, it is just crazy. 
Apparently from what I read, that is happening in many places 
around the Country.
    Mr. Grumbles. Mr. Chairman, while EPA recognizes that in 
some watersheds and across the Country one of the greatest 
challenges to water quality can be the pollutants and sediments 
in storm water. We need to do more work on the effectiveness 
and efficiency and equitable nature of the storm water 
regulatory program as it is implemented through the Federal 
Clean Water Act.
    There are a couple of things we are doing that I would 
mention. One of them is, as we work with States and localities 
implementing the storm water permitting program under the Clean 
Water Act, both Phase I and Phase II, which gets at the smaller 
communities and the construction sites across the Country, we 
recognize that we have to do a better job taking a results 
oriented focus that is based on science and includes 
feasibility.
    Results oriented so that we do not get hung up on the 
costly process of going through detailed permitting programs, 
but focus on general and flexible permits that have the results 
approach of meeting Clean Water Act requirements.
    The key is working at the local basis through our regions 
and most importantly through the States, who really implement 
the clean water programs. The homebuilders in particular, Mr. 
Chairman, have raised the concern. Environmental groups have 
raised concerns as well about implementation of the Storm Water 
Program. So we are sorting through and working through those 
concerns.
    With the homebuilders, one of the key complaints they have 
is the potential for duplication. So we are committed to 
working with the States on the management practices so that 
there are not multiples, you know, that a developer has to get 
a permit that is the same as the permit that the city just got. 
There needs to be greater jurisdiction-wide coordination.
    We will work on that. I would be happy to report back to 
you and to Congresswoman Johnson on the progress on that front.
    Mr. Duncan. Well, I just don't believe that most 
homebuilders and developers are criminals. I believe 99.99 
percent of them want to do the right thing. I don't want to see 
any department or energy of the Federal Government with this 
gotcha type attitude where they pride themselves on how many 
people they catch doing something wrong. But, they pride 
themselves on working with these people to help them do the 
right thing in the most cost effective way possible. Because if 
we do not, then you are going to see home ownership just go. 
The really important point goal here is to make sure that home 
ownership doesn't just become an impossible dream for most 
young couples around the Country.
    It is not just in this area. This is happening in many, 
many, many places all over this Country. So is it is a concern 
of mine, and I think there is a balance that we can achieve 
there, and I hope that we will work on that.
    Mr. Grumbles. Mr. Chairman, I just wanted to say, I cannot 
speak for the enforcement office, but they also have a 
compliance assurance office, and they are working, they are 
exploring pilot projects with developers to assure compliance 
with the Clean Water Act in a way that does not focus on 
penalizing, but more on complying with reasonable requirements. 
So they are working on that. I appreciate the message. We will 
report back to you and your colleagues on that.
    Mr. Duncan. All right. As usual, first of all, let me thank 
you again for your patience, and I apologize to you for the 
delay caused by those votes. As usual, the staff may wish to 
submit some questions to supplement your testimony, and your 
response to questions for the record of the hearing. I believe 
Ms. Johnson was going to submit some questions as well.
    Thank you very much. That will conclude this hearing.
    [Whereupon, at 5:12 p.m. the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T8269.001
    
    [GRAPHIC] [TIFF OMITTED] T8269.002
    
    [GRAPHIC] [TIFF OMITTED] T8269.003
    
    [GRAPHIC] [TIFF OMITTED] T8269.004
    
    [GRAPHIC] [TIFF OMITTED] T8269.005
    
    [GRAPHIC] [TIFF OMITTED] T8269.006
    
    [GRAPHIC] [TIFF OMITTED] T8269.007
    
    [GRAPHIC] [TIFF OMITTED] T8269.008
    
    [GRAPHIC] [TIFF OMITTED] T8269.009
    
    [GRAPHIC] [TIFF OMITTED] T8269.010
    
    [GRAPHIC] [TIFF OMITTED] T8269.011
    
    [GRAPHIC] [TIFF OMITTED] T8269.012
    
    [GRAPHIC] [TIFF OMITTED] T8269.013
    
    [GRAPHIC] [TIFF OMITTED] T8269.014
    
    [GRAPHIC] [TIFF OMITTED] T8269.015
    
    [GRAPHIC] [TIFF OMITTED] T8269.016
    
    [GRAPHIC] [TIFF OMITTED] T8269.017
    
    [GRAPHIC] [TIFF OMITTED] T8269.018
    
    [GRAPHIC] [TIFF OMITTED] T8269.019
    
    [GRAPHIC] [TIFF OMITTED] T8269.020
    
    [GRAPHIC] [TIFF OMITTED] T8269.021
    
    [GRAPHIC] [TIFF OMITTED] T8269.022
    
    [GRAPHIC] [TIFF OMITTED] T8269.023
    
    [GRAPHIC] [TIFF OMITTED] T8269.024
    
    [GRAPHIC] [TIFF OMITTED] T8269.025
    
    [GRAPHIC] [TIFF OMITTED] T8269.026
    
    [GRAPHIC] [TIFF OMITTED] T8269.027
    
    [GRAPHIC] [TIFF OMITTED] T8269.028
    
    [GRAPHIC] [TIFF OMITTED] T8269.029
    
    [GRAPHIC] [TIFF OMITTED] T8269.030
    
    [GRAPHIC] [TIFF OMITTED] T8269.031
    
    [GRAPHIC] [TIFF OMITTED] T8269.032
    
    [GRAPHIC] [TIFF OMITTED] T8269.033
    
    [GRAPHIC] [TIFF OMITTED] T8269.034
    
    [GRAPHIC] [TIFF OMITTED] T8269.035
    
    [GRAPHIC] [TIFF OMITTED] T8269.036
    
    [GRAPHIC] [TIFF OMITTED] T8269.037
    
    [GRAPHIC] [TIFF OMITTED] T8269.038
    
    [GRAPHIC] [TIFF OMITTED] T8269.039
    
    [GRAPHIC] [TIFF OMITTED] T8269.040
    
    [GRAPHIC] [TIFF OMITTED] T8269.041
    
    [GRAPHIC] [TIFF OMITTED] T8269.042
    
    [GRAPHIC] [TIFF OMITTED] T8269.043
    
    [GRAPHIC] [TIFF OMITTED] T8269.044
    
    [GRAPHIC] [TIFF OMITTED] T8269.045
    
    [GRAPHIC] [TIFF OMITTED] T8269.046
    
    [GRAPHIC] [TIFF OMITTED] T8269.047
    
                                    

</pre></body></html>
